   January 28, 2005




Acquisition
Contract with Reliant Energy
Solutions East
(D-2005-027)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CFTC                  Commodity Futures Trading Commission
DESC                  Defense Energy Support Center
DLA                   Defense Logistics Agency
FAR                   Federal Acquisition Regulation
FERC                  Federal Energy Regulatory Commission
RES                   Reliant Energy Services, Inc.
RESE                  Reliant Energy Solutions East
SDO                   Suspension/Debarment Official
SEC                   Securities and Exchange Commission
SSET                  Source Selection Evaluation Team
              Office of the Inspector General of the Department of Defense
Report No. D-2005-027                                                                   January 28, 2005

      (Project No. D2004CB-0215)

                      Contract With Reliant Energy Solutions East

                                         Executive Summary

Who Should Read This Report and Why? DoD contracting officials, program
managers, and Military personnel involved in the contract award process for the supply
of electricity to DoD.

Background. This audit was performed in response to a conference report request
accompanying the Department of Defense Appropriations Act for FY 2005, which states:
           . . . the Department of Defense issued a $36 million contract to Reliant Energy Solutions
           East to provide electricity to military installations on May 19, 2004.∗ The Federal
           Acquisition Regulation authorizes the suspension of a contractor on the basis of adequate
           evidence of any offense “indicating a lack of business integrity or business honesty that
           seriously and directly affects the present responsibility of the contractor.” The conferees
           direct the Department of Defense Inspector General to review the contract and take any
           necessary action against Reliant Energy, Inc., and its subsidiaries, if appropriate. The
           Department is directed to report to the Committees on Appropriations within 180 days of
           enactment of the Act on the finding of its review and any subsequent actions taken on the
           contract.

The Federal Acquisition Regulation Part 9, “Contractor Qualifications,” prescribes the
policies and procedures governing the debarment and suspension of contractors and the
responsibility determination for prospective contractors.

In May 2004, the Defense Energy Support Center, a field activity of the Defense
Logistics Agency, awarded a $47,694,368 contract to Reliant Energy Solutions East to
supply retail electricity to multiple Federal Government installations. The Reliant
Energy Solutions East proposal named an affiliate company, Reliant Energy Services,
Inc., as the wholesale supplier for that electricity. Reliant Energy Services, Inc., was
indicted on April 8, 2004, for the criminal manipulation of the California energy market
in June 2000. Public Citizen, a national nonprofit public interest organization,
questioned the DoD contract award to Reliant Energy Solutions East and called for
debarment or suspension action.

Results. The Defense Energy Support Center electricity contract was awarded in
compliance with the Federal Acquisition Regulation Part 9 criteria; however,
improvements are needed in the responsibility determination process and the source
selection scoring process.

∗
    Original amount and date of contract award were $11,776,119 and May 13, 2004. Modification P00001,
    increased the amount of award to $47,694,368 on May 18, 2004.
       •   The contracting officer determined that Reliant Energy Solutions East was a
           responsible prospective contractor without considering all of the data in the
           proposal and without requesting a legal review concerning the Reliant Energy
           Services, Inc., indictment and its effect on Reliant Energy Solutions East.

       •   The contracting specialist made 182 input errors, an error rate of 15.3 percent,
           when posting technical scores to an automated summary spreadsheet for the
           4 bidders to the Defense Energy Support Center electricity contract.

As a result, the Defense Logistics Agency was exposed to unnecessary contract risk, and
the support for possible suspension action may have been affected.

The Inspector General of the Department of Defense is not a Suspension/Debarment
Official and cannot take action against Reliant Energy, Inc., as requested in the
conference report to the Department of Defense Appropriations Act for FY 2005. The
Suspension/Debarment Official for the Defense Logistics Agency will determine whether
suspension action should be taken against Reliant Energy, Inc., or its subsidiaries. As of
the date of this report that determination had not been made and, on December 8, 2004,
the Defense Energy Support Center awarded a new contract to Reliant Energy Solutions
East with no objection from the Suspension/Debarment Official.

The Director, Defense Logistics Agency needs to establish guidance to require
contracting officers to evaluate all requested data when making responsibility
determinations, to report indictments of prospective contractors’ affiliates, and to provide
oversight of the source selection scoring process. In addition, the Director needs to
establish a process to coordinate with other Federal agencies to determine whether
criminal, civil, or regulatory action has been initiated against prospective energy
contractors. The Director also needs to consider the information provided in this report
before making a determination to proceed with suspension action against Reliant Energy,
Inc., or any of its subsidiaries. See the Finding section for detailed recommendations.

Management Comments and Audit Response. The Director, Logistics Operations,
Defense Logistics Agency concurred with the finding and recommendations. The
Director agreed to establish guidance requiring contracting officers to evaluate all
requested data when making responsibility determinations, to report indictments of
prospective contractors’ affiliates, and to provide oversight of the source selection
scoring process. The Director stated the Defense Logistics Agency will continue to
coordinate with the appropriate agencies to determine whether criminal, civil, or
regulatory action has been initiated against prospective energy contractors. Lastly, the
Director agreed to consider all relevant documentation, including this audit, before
rendering suspension/debarment action against Reliant Energy Solutions East. A
discussion of management comments is in the Finding section of the report and the
complete text is in the Management Comments section.

The Defense Logistics Agency comments were partially responsive. We request that the
Defense Logistics Agency provide specific information concerning the process used to
coordinate with the regulatory agencies. In addition, we request clarification as to why
the comments only referred to possible suspension/debarment action against Reliant
Energy Solutions East and not the parent company, Reliant Energy, Inc., or the indicted
subsidiary. We request that the Defense Logistics Agency provide additional comments
in response to the final report, as indicated in the transmittal memorandum, by
March 28, 2005.


                                             ii
Table of Contents

Executive Summary                                     i

Background                                           1

Objectives                                           3

Finding
     Contract With Reliant Energy Solutions East     4

Appendixes
     A.   Scope and Methodology                      15
     B.   Reliant Energy, Inc., Organization Chart   16
     C.   Timeline of Critical Events                17
     D.   Report Distribution                        19

Management Comments
     Defense Logistics Agency                        21
Background
           This audit was performed in response to a conference report request
           accompanying the Department of Defense Appropriations Act for FY 2005,
           which states:

                   . . . the Department of Defense issued a $36 million contract to Reliant
                   Energy Solutions East to provide electricity to military installations on
                   May 19, 2004.1 The Federal Acquisition Regulation authorizes the
                   suspension of a contractor on the basis of adequate evidence of any
                   offense “indicating a lack of business integrity or business honesty that
                   seriously and directly affects the present responsibility of the
                   contractor.” The conferees direct the Department of Defense Inspector
                   General to review the contract and take any necessary action against
                   Reliant Energy, Inc., and its subsidiaries, if appropriate. The
                   Department is directed to report to the Committees on Appropriations
                   within 180 days of enactment of the Act on the finding of its review
                   and any subsequent actions taken on the contract.

           The Federal Acquisition Regulation (FAR) language cited in the conference
           report is located in FAR 9.407-2, “Causes for Suspension,” which lists the causes
           for suspending a party from contracting with the Federal Government.

           On April 8, 2004, the Department of Justice indicted Reliant Energy Services,
           Inc., (RES) an affiliate company of Reliant Energy Solutions East (RESE), for the
           criminal manipulation of the California energy market in June 2000. Public
           Citizen, a national nonprofit public interest organization, questioned the DoD
           contract award to RESE, stating that, “Reliant Energy is neither a responsible or
           ethical company,” and called for the debarment or suspension of Reliant Energy
           from all Federal contracts in letters to Senator Dianne Feinstein, the Secretary of
           Defense, and the Defense Logistics Agency (DLA). In requesting the debarment
           or suspension action, Public Citizen made no distinction between the parent
           company, Reliant Energy, Inc., and its subsidiaries.
           Electricity Contract. The Defense Energy Support Center (DESC), a field
           activity of DLA, issued solicitation SP0600-03-R-0149 on October 2, 2003, for
           the supply and delivery of electricity to Federal Military and civilian facilities
           located in Maryland, New Jersey, and Virginia. The solicitation was issued as a
           “combined solicitation” which allowed the contracting officer to make multiple
           contract awards from the same solicitation. DESC received bids from four
           prospective contractors and awarded contracts to three of those four contractors.
           RESE was awarded one of the contracts, SP0600-04-D-8007, on May 13, 2004.
           The initial amount of the contract was $11,776,119, and modification P00001,
           dated May 18, 2004, increased the contract award amount to $47,694,368. The
           contract was a firm-fixed-price contract to supply retail electricity to Adelphi
           Labs; Andrews Air Force Base; the National Institute for Science and
           Technology; Navy Carderdock; Naval Medical Center, Bethesda; and Walter

1
    Original amount and date of contract award were $11,776,119 and May 13, 2004. Modification P00001,
    increased the amount of award to $47,694,368 on May 18, 2004.



                                                      1
           Reed Army Medical Center. The contract period of performance was for the
           17 months beginning July 2004, with no option period. The proposal submitted
           by RESE named RES as the wholesale supplier for the electricity to be supplied
           for the contract.

           Reliant Energy, Inc. Reliant Energy, Inc.,2 headquartered in Houston, Texas, is
           an energy producer and marketer in the United States. The company provides and
           sells electricity in the retail and wholesale markets and operates plants that
           generate electricity. Reliant Energy, Inc., consists of two principal business
           segments: a retail segment, which includes RESE, and a wholesale segment,
           which includes RES. See the Reliant Energy, Inc., organization chart in
           Appendix B.

                    •    RESE is a limited liability corporation and a wholly-owned subsidiary
                         of Reliant Energy, Inc. It was formed February 4, 2002, and provides
                         electricity to retail customers primarily in Texas, Maryland, and New
                         Jersey. As a part of the Reliant Energy, Inc., retail energy segment,
                         RESE operates in states that have deregulated retail electricity sales.

                    •    RES is a wholly-owned subsidiary of Reliant Energy, Inc. It was
                         formed February 2, 1999, and provides electricity for the United States
                         wholesale market. As a part of the Reliant Energy, Inc., wholesale
                         business segment, RES operates electric generation facilities and sells
                         electricity based on market pricing, which may include buying and
                         selling electricity on the commodity exchanges.

           The retail segment is subject to individual state regulation and oversight. The
           wholesale segment is subject to regulation and oversight from the Federal Energy
           Regulatory Commission (FERC) and the Commodity Futures Trading
           Commission (CFTC), because the wholesale segment participates in the
           commodities market.

           RES Indictment and Regulatory Settlements. The Department of Justice
           indicted RES and four of its officers on April 8, 2004, for the criminal
           manipulation of the California energy market in June 2000. The indictment
           charged that RES intentionally drove up the price of electricity in California by
           shutting off certain of the company’s power generation plants to create the
           appearance of an electricity shortage and disseminating false information to the
           market that wrongly attributed the shut-downs to environmental limitations. The
           specific charges included conspiracy to commit wire fraud and commodities
           manipulation, in violation of section 371, title 18, United States Code,
           (18 U.S.C. 371); wire fraud, in violation of 18 U.S.C. 1343; commodities
           manipulation, in violation of 7 U.S.C. 13(a)(2); and aiding and abetting, in
           violation of 18 U.S.C. 2.

           From January 2003 to March 2004, Reliant Energy, Inc., and RES agreed to pay
           up to $82.6 million to settle claims with regulators from CFTC and FERC. Those
           claims resulted from allegations that RES manipulated the energy market. In
           May 2003, Reliant Energy, Inc., accepted an order from the Securities and
2
    Before April 26, 2004, Reliant Energy, Inc. was known as Reliant Resources, Inc.



                                                      2
            Exchange Commission (SEC) to cease and desist from engaging in round-trip
            trades3 and erroneously moving earnings from one accounting period to another
            that resulted in the misstatement of its trading volumes, revenues, and expenses.
            See Appendix C for a timeline of critical events including the regulatory actions,
            the indictment, and the contract award process.

            Acquisition Regulation. FAR Part 9, “Contractor Qualifications,” prescribes the
            policies, standards, and procedures pertaining to the responsibility determination
            for prospective contractors, and the policies and procedures governing the
            debarment and suspension of contractors.


Objectives
            The audit objective was to determine the appropriateness of awarding a contract
            to RESE and subsequent DoD actions. See Appendix A for a discussion of the
            scope and methodology related to the objective.




3
    Round-trip trades are actions that attempt to inflate transaction volumes through the frequent purchase and
    sale of a particular commodity. In the energy sector, power is sold and then quickly bought back from
    the same customer at the same price, which falsely increases a company’s market position and can make
    the demand for power appear greater than it is in reality and thus force prices up.



                                                        3
            Contract With Reliant Energy Solutions
            East
            The DESC electricity contract was awarded in compliance with FAR
            Part 9 criteria; however, improvements are needed in the responsibility
            determination process and the source selection scoring process.

                    •   The contracting officer who awarded the DESC contract
                        determined that RESE was a responsible prospective contractor
                        without considering all of the data available in the proposal and
                        without requesting a legal review concerning the RES
                        indictment and its effect on RESE.

                    •   The contracting specialist made 182 input errors, an error rate
                        of 15.3 percent, when transferring the 1,188 entries from the
                        technical evaluation scoring sheets to an automated summary
                        spreadsheet for the 4 bidders to the DESC electricity contract.

            DLA guidance does not clearly define the contracting officer’s
            responsibility to review requested proposal data, to report indictments or
            other actions taken against an affiliate of a prospective contractor to the
            General Counsel, or to provide oversight for the source selection scoring
            process. In addition, DLA had no mechanism to identify when
            indictments or regulatory actions are taken by other Federal agencies
            against current or prospective contractors in the energy sector. As a result,
            DLA was exposed to unnecessary contract risk and the support for
            possible suspension action may have been affected.


Criteria
     FAR Subpart 9.1, “Responsible Prospective Contractors,” prescribes the policies,
     standards, and procedures for determining whether prospective contractors and
     subcontractors are responsible. According to the FAR, the determination of
     responsibility is based on a prospective contractor’s ability to meet certain general
     standards prescribed in the FAR and, if applicable, special standards as prescribed
     in the request for proposal.

     General Standards. To meet the FAR general standards for responsibility, the
     prospective contractor must provide evidence of the seven following items:

            •   adequate financial resources;

            •   the ability to comply with the contract delivery schedule;

            •   a satisfactory performance record;

            •   a satisfactory record of integrity and business ethics;



                                           4
            •   the necessary organization, experience, and accounting system support
                to manage the contract;

            •   the necessary equipment and facilities to perform the contract; and

            •   be otherwise qualified and eligible to receive the award under
                applicable laws and regulations.

     Special Standards. In addition to the general standards, the DESC contracting
     officer included special standards in the request for proposal. To meet the special
     standards the prospective contractor must provide evidence of the following four
     items:

            •   6 months minimum experience providing electricity to retail
                customers,

            •   licenses to market electricity in the State,

            •   documented ability to obtain transmission service agreements in the
                company’s name for the points of receipt, and

            •   evidence of responsibility in accordance with the general standards in
                FAR Subpart 9.1.

     To make the final determination of responsibility, FAR 9.405(d)(4) states that the
     contracting officer shall determine whether the contractor is on the excluded
     parties listing system. The excluded parties listing system is maintained and
     distributed by the General Services Administration and contains the names,
     addresses, and identity of parties debarred, suspended, or voluntarily excluded
     from Federal contracts. The FAR states that contractors and subcontractors
     debarred, proposed for debarment, or suspended are excluded from receiving
     contracts, and agencies shall not solicit offers from, award contracts to, or consent
     to subcontracts with these contractors. When the contracting officer signs the
     contract, that action constitutes a determination of responsibility by the
     contracting officer.

     The DESC electricity contract was awarded in compliance with FAR Part 9
     criteria; however, improvements are needed in the responsibility determination
     process and the source selection scoring process.


Determination of Responsibility
     The contracting officer who awarded the DESC contract determined that RESE
     was a responsible prospective contractor without considering all of the data
     available in the proposal and without requesting a legal review concerning the
     RES indictment and its effect on RESE. The DESC contracting officer made his
     initial responsibility determination in January 2004, learned of the RES
     indictment on April 12, 2004, and signed the final determination of RESE
     responsibility on June 15, 2004.


                                           5
Initial Determination of Responsibility. The DESC contracting officer made
his initial determination of contractor responsibility in January 2004, during the
review of technical proposals. According to documents in the contract file, the
contracting officer was ultimately responsible for making the responsibility
determination, which was based on a review of the contractor’s proposal. In
accordance with the request for proposal, RESE provided the contracting officer
with access to its most recent annual report and filing to the SEC (10K filing), a
description of its management practices and key personnel resumes, a copy of its
state marketing licenses, a description of its electricity supply sources, and a
record of its past performance.

Consistent with FAR Subpart 9.1, the DESC contracting officer determined
whether RESE was fiscally responsible and could deliver electricity for the length
of the contract period. The primary documents used by the contracting officer to
support the determination were the state marketing licenses. RESE provided a
copy of its Maryland license, issued on May 21, 2003, and its New Jersey license,
issued on March 5, 2003, in its proposal. The contracting officer considered the
state marketing licenses to be excellent support for the seven items required to
meet the general standards and the four items required to meet the special
standards because of the stringent licensing requirements for electricity suppliers.
For example, the State of Maryland requires suppliers to provide organizational
data, its operational capacity and scope of operations, financial information,
affidavits of tax compliance, and verification of financial and other data before it
will grant a license to conduct business in the state.

In addition to the review of licensing documents, the contracting officer stated
that he reviewed the following sections of the RESE proposal to provide
additional support for the general and special standards.

       •   Resumes of key personnel were reviewed to confirm that RESE
           personnel had experience in the electric power supply industry.

       •   Past performance documents were reviewed to ensure that RESE had
           provided adequate service to current and former customers.

       •   Sources of working capital were reviewed to determine whether RESE
           had adequate working capital. The majority of the RESE submission
           contained financial data for Reliant Energy, Inc., its parent company.
           The contracting officer stated that subsidiaries typically include
           financial data from the parent since the parent companies have a more
           diverse portfolio and a stronger financial position.

       •   The risk management program was reviewed to determine whether
           RESE had supply backup plans to protect itself from market price
           fluctuations. The RESE proposal stated that it would purchase
           100 percent of its wholesale electricity supply for the DESC contract
           from RES. The contracting officer stated that he considered this a
           positive factor because the proposal also stated that RES had the
           ability to generate its own electricity if it could not purchase enough
           from the marketplace to support any possible RESE needs.



                                     6
       •   The FAR 52-209.5, “Certification Regarding Debarment, Suspension,
           Proposed Debarment, and Other Responsibility Matters,” was
           reviewed to ensure that the company certified that it was not presently
           debarred, suspended, proposed for debarment, or declared ineligible
           for the award of contracts by a Federal agency.

The contracting officer stated that he did not review the RESE annual report or
10K filing in his determination of the company’s responsibility. He stated that
the annual report and the 10K filing were requested only to provide assurance that
the electricity suppliers were serious about bidding for the contract and had the
business acumen to perform the contract. As stated previously, the contracting
officer primarily relied on the state marketing licenses to provide support for the
responsibility determination. We agree that the state marketing licenses provide
support for that determination; however, the contracting officer should have also
reviewed the annual report and the 10K filing. The annual report and 10K filing
should include a contingency section that includes probable and reasonably
estimated liabilities based on regulatory fines, penalties, or indictments. Review
of the RESE annual report and 10K filing showed the payments to the regulatory
agencies and the possibility of a Department of Justice indictment. Although the
contracting officer learned of the regulatory fines and the indictment by other
means, he should have reviewed the annual reports and 10K filing to determine
whether any contingencies occurred after the state marketing licenses were
granted, which would not have been considered by the state licensing board, but
may affect a prospective contractor’s responsibility.

The contracting officer stated that based on his review of the RESE proposal and
the results of the technical evaluation, he made an initial determination that RESE
was a responsible prospective contractor.

Response to Indictment. The DESC contracting officer learned of the RES
indictment on April 12, 2004, one month before the contract award. He received
no formal notification of the indictment, but instead learned of it from reading a
trade publication. He stated that he considered whether the indictment had an
effect on the present responsibility of RESE and its ability to supply electricity
under the terms of the contract, and determined that it did not. He stated that he
considered the following to make the determination:

       •   RESE was the offeror for the contract and neither RESE or its officers
           were included in the indictment.

       •   The parent company, Reliant Energy, Inc., was not included in the
           indictment. The contracting officer stated that his actions might have
           been different had the parent company or any of its officers been
           included in the indictment.

       •   RESE was a retail provider of electricity and did not participate in the
           wholesale or futures trading operations as did RES at the time of the
           charges. In addition, as a retail provider not participating in
           commodities trading, RESE was not subject to CFTC or FERC
           regulations.



                                     7
       •   RESE was not in existence in 2000 when the actions that led to the
           indictment took place.

The contracting officer did not consider as a factor that RESE would be
purchasing its wholesale supply of electricity from RES and that financial
penalties as a result of the indictment could adversely impact RES operations.
Although the RESE proposal stated that it would receive 100 percent of its
wholesale supply from RES for the DESC contract, the contracting officer stated
that he was not required to consider that as a factor because the DESC contract
was awarded under FAR Part 12, “Acquisition of Commercial Items.” FAR
Part 12 does not require a prospective contractor to name its ultimate supply
source nor does it require that the contracting officer consider that ultimate
source. Therefore, the contracting officer determined that, although RES was
named as the wholesale supplier of electricity for RESE, that information had no
bearing on the ability of RESE to comply with the terms of the contract. Further,
he determined that the indictment of RES did not warrant notification or
involvement of DESC Counsel. The contracting officer stated that he had enough
information concerning the RES indictment to make the determination that it did
not affect RESE responsibility and additionally, he did not want to burden DESC
Counsel with the case.

Final Determination of Responsibility. The contracting officer made a final
determination of the responsibility of RESE during the review of the contractor
price proposals. Because of the volatility of electricity prices, the price proposals
were not due or reviewed until 48 hours prior to contract award. FAR Subpart
9.405(d)(4) requires the contracting officer to check the excluded parties listing
system immediately prior to contract award. That check was made on May 12,
2004, one day before the original contract award. We confirmed that the contract
file included a printout from the excluded parties listing system, which stated as
of May 12, 2004, no records were found concerning RESE. Although, because of
administrative backlogs, the contracting officer did not sign the responsibility
certification until June 15, 2004, we consider the printout to satisfy the FAR
requirement.

The contracting officer stated that he was aware of the CFTC, FERC, and SEC
actions against RES when making the final determination of RESE responsibility.
He did not contact those agencies to gather additional information concerning the
regulatory actions because RESE was not named as a party to the actions.
Furthermore, the Assistant Counsel, DESC stated that even if RESE had been
named in the action, the FAR does not state that regulatory actions or fines have
an adverse effect on contractor responsibility.

Adequacy of the Contractor Officer’s Decision. We consider the contracting
officer to have met the FAR Part 9 requirements when he determined that RESE
was a responsible prospective contractor. However, the contracting officer should
have reviewed the contingency section of the annual report and the 10K filing to
ensure that no additional liabilities had accrued since the state marketing licenses
were issued. In addition, in learning of the RES indictment, the contracting
officer should have informed the DESC Counsel of the indictment and requested
a legal review. DESC Counsel had more expertise to determine whether the
indictment would have an impact on the ability of RESE to perform under the


                                      8
     contract terms and whether suspension or debarment action should be initiated
     against Reliant Energy, Inc., or any of its subsidiaries.


Scoring for the Source Selection Process
     The contracting specialist made 182 input errors, an error rate of 15.3 percent,
     when transferring the 1,188 entries from the technical evaluation scoring sheets to
     an automated summary spreadsheet for the 4 bidders to the DESC electricity
     contract. The technical evaluation scoring sheets were prepared by a
     three-member source selection evaluation team (SSET).

     The SSET reviewed the technical proposals for the four contractors that bid on
     the DESC electricity contract, solicitation SP0600-03-R-0149, to determine the
     ability of those contractors to technically perform the contract. The technical
     SSET members assigned numerical scores in the categories of technical capability
     and industry experience. The technical SSET members entered raw scores onto
     scoring sheets and the DESC contracting specialist transferred those raw scores to
     an automated summary spreadsheet. The spreadsheet was designed to add and
     average the raw scores. The average scores were then transferred to another
     spreadsheet that also contained scores for the past performance and
     socioeconomic categories, which were scored by a separate SSET. In accordance
     with the source selection plan, weighting factors were assigned to each category
     score and an overall numeric rating was computed for each prospective
     contractor. That numeric rating was then converted to an adjectival score of
     Excellent, Very Good, Satisfactory, or Unsatisfactory. The source selection plan
     stated that the contract award would be made based on the adjectival score and
     price; a trade-off analysis would be necessary only if one or more of the
     prospective contractors had different adjectival scores. Based on the spreadsheet
     results, each of the four prospective contractors received a score of Very Good.

     Of the 1,188 raw scores assigned by the technical SSET, we identified 182 errors
     made by the contracting specialist when transferring those scores to the summary
     spreadsheet, an error rate of 15.3 percent. We recomputed the numeric rating for
     the four contractors based on a corrected summary spreadsheet. That
     computation indicated that three of the four original numerical ratings were
     incorrect; however, the adjectival score for the three contractors remained in the
     Very Good range. Although the errors did not affect the overall adjectival scores
     for this specific source selection, the possibility exists that similar errors in other
     source selections could result in incorrect technical scores.

     The contracting officer should ensure that adequate oversight is provided during
     the source selection process to ensure that raw scores are correctly transitioned
     between the scoring sheets and the summary spreadsheet. Although the errors in
     this case did not lead to an improper award, the possibility exists that an incorrect
     technical score could result in an improper contract award in the future.




                                            9
DLA Guidance
    DLA guidance does not clearly define the contracting officer’s responsibility to
    review requested proposal data, to report indictments or other actions taken
    against an affiliate of a prospective contractor to the General Counsel, or to
    provide oversight for the source selection scoring process.

    Responsibility Determination. As a supplement to FAR Subpart 9.1, DLA
    Directive 4105.1, “Defense Logistics Acquisition Directive,” May 11, 2000, lists
    the requirements to determine whether prospective contractors are responsible.
    Because the contracting officer relied primarily on a state marketing license
    review to make a responsibility determination for the energy sector contractors,
    DLA guidance should require a review of the contingency section of the annual
    reports and 10K filing, which should list any fines, penalties, or criminal or civil
    actions that accrued after the state license was granted.

    Debarment and Suspension. As a supplement to FAR Subpart 9.4, DLA
    Directive 4105.1 contains DLA specific debarment and suspension procedures.
    Contracting officers, upon learning of a contractor indictment, are required to
    submit a report to the DLA General Counsel recommending suspension of that
    contractor. The submission should be made within 2 weeks of the date of the
    indictment or the date that the contracting officer learned of the indictment. The
    Directive states that any DLA activity that is aware of the recommendation for
    suspension will coordinate with the General Counsel before taking any action, to
    include the award of a contract or purchase order to that contractor. The
    contracting officer must also determine whether the activity has current or has had
    past contractual relationships with the contractor or its affiliates, and, if so,
    whether the Government may have any basis for recovery of damages from, or
    other claims against, the contractor. However, the Directive does not state that
    the contracting officer should report the indictment of an affiliate or parent
    company of a prospective or current contractor, which depending on the severity
    of the charges and the affiliate relationship, could affect the responsibility of a
    prospective contractor. Because the responsibility of an affiliate could be
    affected, the contracting officer should be required to report, in a timely manner,
    indictments or other criminal or civil charges filed against a prospective
    contractor’s affiliate to the General Counsel.

    Scoring for the Source Selection Process. DLA lacks guidance that addresses
    the contracting officer’s responsibility to oversee the source selection scoring
    process. To ensure that errors in scoring are discovered and corrected, the
    contracting officer should be required to provide oversight for the work
    performed by the contracting specialists. The contracting officer is ultimately
    responsible for the contract award and because of that responsibility, the
    contracting officer should ensure that the work performed by the contracting
    specialist is correct. Proper oversight would increase the confidence that the
    source selection process, as a whole, is effective and results in accurate technical
    scores and proper contract awards.




                                         10
Notification of Indictments and Regulatory Actions
     DLA had no mechanism to identify when indictments or regulatory actions were
     taken by other Federal agencies against current or prospective contractors in the
     energy sector. The contracting office and its personnel currently depend on trade
     publications for that type of information. Because the CFTC, the Department of
     Justice, the FERC, and the SEC typically do not coordinate their investigative or
     enforcement actions with other Federal agencies, DLA should consider
     establishing a point of contact within those organizations. The contracting officer
     can then inquire about any investigative or enforcement actions of prospective
     contractors within the energy sector and whether those actions could affect the
     responsibility determination. If warranted, the contracting officer can then report
     those actions to the appropriate counsel.

     An update to the DLA Directive 4105.1 or the establishment of separate guidance,
     along with a mechanism to obtain information from the Department of Justice and
     the regulatory agencies, should enable the contracting officer to better support a
     responsibility determination and ensure that contracts are awarded appropriately.
     In addition, it will improve communication of potential suspension and debarment
     actions to the General Counsel.


Contract Risk and Suspension Action
     DLA was exposed to unnecessary contract risk and the support for possible
     suspension action may have been affected.

     Contract Risk. The RES indictment and the errors in the scoring for the source
     selection process increased the contract risk for the DESC electricity contract.
     Because RES was named as the sole wholesale supplier for RESE, if RES had
     been impacted financially by the indictment, or the cumulative effect of the
     regulatory fines plus the indictment, RESE could have had problems fulfilling its
     contractual obligations. The contracting officer should have recognized that
     possibility, and by reporting the issue to the DESC Counsel and requesting a legal
     review, could have better mitigated the performance risk, and strengthened his
     support for the award to RESE. In addition, an error rate of 15.3 percent in the
     scoring for the source selection process does not provide reasonable assurance
     that a contract will be awarded to the appropriate bidder.

     Suspension Action. The contracting officer, by declaring RESE a responsible
     contractor, may have affected the support for possible suspension action, if
     warranted. Reliant Energy, Inc., stated, in an August 20, 2004, submission to the
     Air Force, that the company should not be considered for suspension because the
     DESC contracting officer awarded RESE a contract, knowing that RES was under
     indictment. Reliant Energy, Inc., asserted that DESC made an “affirmative
     determination of responsibility of the offering entity and possibly its affiliates,”
     and that DLA supported that determination. The submission also cited a Board of
     Contract Appeals case, Lion Raisins, Inc., versus United States, 51 Federal
     Claims 238 (2001), in which a suspension action was overturned because the


                                          11
        Department of Agriculture was aware of contractor misconduct but subsequently
        found the contractor responsible by awarding it several interim contracts. Had the
        DESC Counsel been informed of the indictment prior to the contract award, she
        could have determined whether or not the contract award to RESE would be an
        endorsement of RES responsibility.


Ongoing DoD Actions
        In addition to the review of the electricity contract, the conference report
        requested that the Inspector General of the Department of Defense take any
        necessary action against Reliant Energy, Inc., and its subsidiaries, if appropriate.
        The conference report cited language from FAR Subpart 9.407-2 that lists the
        causes for suspending a party from contracting with the Federal Government.
        However, the Inspector General of the Department of Defense is not an
        authorized Suspension/Debarment Official (SDO). Typically, the SDO is
        appointed from the agency with the predominant financial interest in the contract.
        The Department of Veterans Affairs and the Department of the Air Force had the
        largest financial interest in contracts with RESE, and DLA deferred the case to
        the Air Force on July 13, 2004, 96 days after the indictment. The Air Force SDO
        issued a show cause letter4 to Reliant Energy, Inc., on August 6, 2004, and
        received a response on August 20, 2004. Before the Air Force SDO could take
        additional steps in the process, he was required to recuse himself from the case.
        The suspension/debarment action was then accepted by the DLA SDO on August
        31, 2004, who, as of the date of this report, had not made a determination to
        proceed with suspension action.

        FAR Subpart 9.4 focuses on three primary categories for which a contractor can
        be excluded from receiving Federal Government contracts: debarment, proposed
        for debarment, and suspension. A contractor may be debarred if convicted or
        civilly charged for fraud in obtaining a public contract or subcontract, violation of
        antitrust statutes, or commission of other offenses indicating a lack of business
        integrity or honesty. A contractor is considered “proposed for debarment” when
        an SDO advises a contractor that it is being considered for debarment. The
        contractor remains in a proposed for debarment status until the SDO makes a
        determination whether to impose or not impose debarment. A contractor may be
        suspended if “suspected of” committing any of the offenses that are cause for
        debarment, to include being indicted.

        FAR Subpart 9.4 states that the existence of a cause for suspension does not
        necessarily require that a contractor be suspended. The SDO should consider the
        seriousness of the act and may, but is not required to, consider any remedial
        measures taken by the contractor subsequent to the act. However, the contractor
        has the burden of demonstrating, to the satisfaction of the debarring official, its
        present responsibility. Accordingly, Reliant Energy, Inc., submitted to the Air
        Force SDO a list of actions taken to ensure that the type of conduct that led to the

4
 A show cause letter is issued to a contractor when the SDO discovers inappropriate or controversial
conduct on the part of a Federal Government contractor. The letter requests that the contractor present
information to support its responsibility.



                                                    12
    indictment can no longer occur. Reliant Energy, Inc., stated that since 2000,
    when the alleged illegal conduct took place, the following actions have been
    taken:

           •   replacement of the Chief Executive Officer of Reliant Energy, Inc.,
               and all of the officers of RES;

           •   development and implementation of a code of conduct;

           •   cooperation with the regulatory agencies and the Department of
               Justice;

           •   issuance of the corporate Business Ethics Policy; and

           •   establishment of the positions of Corporate Compliance Officer and a
               Compliance Director for Trading, who sit on the trading floor and
               provide guidance and advice to the traders.

    Reliant Energy, Inc., also counseled the four employees named in the indictment,
    two of whom are no longer employed by Reliant Energy, Inc., or any of its
    subsidiaries, and two of whom are on administrative leave awaiting the resolution
    of the indictment.

    The DLA SDO must consider the relevant facts of the RES indictment and the
    information provided in this report before making a determination to proceed with
    suspension action against Reliant Energy, Inc., or any of its subsidiaries.
    However, that determination should be expedited because DESC has continued to
    award contracts to RESE with that suspension action still outstanding. According
    to an Assistant Counsel, DESC, a contract was awarded to RESE on December 8,
    2004, for an estimated value of $6.5 million. The Assistant Counsel stated that
    the contracting officer determined RESE to be a responsible prospective
    contractor and that the determination was reviewed by DESC and DLA and that
    the DLA SDO had no objection to the award. Resolution of the suspension action
    will ensure that contracting officers and counsel can make a timely and informed
    decision as to the responsibility of Reliant Energy, Inc. and its subsidiaries.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director, Defense Logistics Agency do the following:

    1. Update DLA Directive 4105.1, “Defense Logistics Acquisition Directive,”
    May 11, 2000, or establish guidance to require contracting officers to:

           a. Evaluate the annual reports and Securities and Exchange
    Commission filings for prospective energy contractors to determine whether
    contingent liabilities exist that may affect the responsibility determination.




                                        13
        b. Report indictments, convictions, or other criminal or civil actions
filed against a prospective contractor’s known subcontractor or affiliate to
the appropriate Suspension/Debarment Official to ensure that the action has
no adverse effect on the responsibility of the prospective contractor and that
timely suspension/debarment action is taken, if warranted.

      c. Provide oversight of the scoring for the source selection process to
reduce the potential for errors.

Defense Logistics Agency Comments. The Director, Logistics Operations,
Defense Logistics Agency concurred and stated that appropriate guidance would
be established.

2. Establish a process to coordinate with applicable regulatory agencies and
the Department of Justice prior to awards of energy contracts to determine
whether criminal, civil, or regulatory action has been initiated against
prospective energy contractors.

Defense Logistics Agency Comments. The Director, Logistics Operations,
Defense Logistics Agency concurred and stated that the Defense Logistics
Agency will rely on the Federal Acquisition Regulation Part 9 procedures and
continue to coordinate with the applicable regulatory agencies and the
Department of Justice through the Defense Criminal Investigative Service.

Audit Response. The Defense Logistics Agency comments were partially
responsive. Although the Director, Logistics Operations concurred with the
recommendation, he did not provide information concerning the specific process
used to coordinate with the regulatory agencies. We request additional comments
that provide a description of the specific method used to coordinate and obtain
information from the regulatory agencies prior to contract award, to determine
whether regulatory action has been initiated against prospective energy
contractors.

3. Consider the information provided in this report before making a
determination to proceed with suspension action against Reliant Energy,
Inc., or any of its subsidiaries.

Defense Logistics Agency Comments. The Director, Logistics Operations,
Defense Logistics Agency concurred and stated that the Suspension/Debarment
Official will consider all relevant documentation, to include this report, before
rendering a suspension/debarment decision regarding Reliant Energy Solutions
East.

Audit Response. The Defense Logistics Agency comments were partially
responsive. The intent of the recommendation was to ensure that all relevant
documentation was reviewed before Reliant Energy, Inc. or any of its subsidiaries
were considered for suspension/debarment action. We request clarification as to
why the Director, Logistics Operations only referred to suspension/debarment
action of Reliant Energy Solutions East and not the parent company Reliant
Energy, Inc. or the indicted subsidiary.



                                    14
Appendix A. Scope and Methodology
    We reviewed the procedures and documentation used to support the DESC
    contract award to RESE. We collected, reviewed, and analyzed documents dated
    from May 2000 through December 2004. Specifically, we evaluated the FAR,
    DLA guidance, pre-award and post-award contract documentation, orders issued
    from the regulatory agencies, and the Department of Justice indictment. In
    addition, we reviewed organization charts, legal opinions, e-mail correspondence,
    and Public Citizen press releases.

    We interviewed DLA, DESC, and Defense Contract Audit Agency personnel to
    obtain a better understanding of the energy sector and the contract award process.
    Additionally, we also interviewed FERC, CFTC, and SEC personnel to evaluate
    the regulatory environment within the energy industry and specific enforcement
    actions taken against energy companies. We also interviewed Reliant Energy,
    Inc., and RESE senior management and general counsel to obtain background
    information on the organizational structure of the company and its subsidiaries
    and to obtain additional information concerning the energy industry.
    Furthermore, we interviewed personnel from the Northern District of California
    U.S. Attorneys Office to obtain a better understanding of the RES indictment and
    the actions that led to that indictment.

    We performed this audit from August 2004 through November 2004 in
    accordance with generally accepted government auditing standards.

    We did not review the management control program because the audit scope was
    limited to the specific issue identified in the conference report request in the
    Department of Defense Appropriations Act for FY 2005.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We obtained assistance from an Associate Deputy
    General Counsel from the Office of General Counsel of the Office of the
    Inspector General of the Department of Defense. The Associate Deputy General
    Counsel assisted the audit team in determining whether the DESC contracting
    officer complied with FAR Part 9 and conducted proper due diligence in making
    his responsibility determination.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Contract Management high-risk area.


Prior Coverage
    No prior coverage has been conducted on the award of retail electricity contracts
    during the last 5 years.



                                        15
Appendix B. Reliant Energy, Inc., Organization
            Chart




                      16
Appendix C. Timeline of Critical Events
    The timeline provides a sequential listing of the actions taken against RES
    concerning allegations that it manipulated the California energy market and
    conducted round-trip trading. In addition, the RESE contract award and
    subsequent DoD actions are shown to provide an overall perspective of the
    critical events associated with the contract award.

           •   January 31, 2003: RES settled with FERC on allegations that it
               limited the amount of power offered to the California Power Exchange
               in June 2000. Case settled for $13.8 million.

           •   May 12, 2003: Reliant Energy, Inc., and RES accepted an order from
               the SEC to cease and desist from engaging in round-trip trading and
               moving earnings from one accounting period to another.

           •   October 2, 2003: DESC issued solicitation SP0600-03-R-0149 for the
               supply and delivery of electricity to Federal Military and civilian
               facilities located in Maryland, New Jersey, and Virginia.

           •   October 2, 2003: RES settled with FERC on allegations of
               manipulative bidding practices in the California energy market. Case
               settled for an amount not to exceed $50 million.

           •   November 12, 2003: RESE submitted a proposal in response to DESC
               solicitation SP0600-03-R-0149.

           •   November 25, 2003: RES settled with the CFTC on allegations of
               false reporting, attempted manipulation of natural gas prices, and
               engaging in wash sales (round-trip trades). Case settled for
               $18 million.

           •   March 4, 2004: RES settled with FERC on additional allegations that
               the company manipulated the California energy market. Case settled
               for $836,000.

           •   April 8, 2004: Department of Justice indicted RES and four of its
               officers on allegations that it criminally manipulated the California
               energy market.

           •   April 12, 2004: DESC contracting officer learned of the RES
               indictment from a trade publication.

           •   May 13, 2004: DESC awarded contract SP0600-04-D-8007 to RESE
               to provide the supply of retail electricity to various Federal
               installations. Contract amount was $47,694,368 million after
               modification P00001, dated May 18, 2004.

           •   June 15, 2004: DESC contracting officer signed the final
               determination of RESE responsibility.


                                        17
•   July 13, 2004: DLA deferred SDO responsibility for the RES case to
    the Air Force Deputy General Counsel for Contractor Responsibility.

•   August 31, 2004: The DLA Special Assistant for Contractor Integrity
    was named the SDO for the RES case because the Air Force Deputy
    General Counsel for Contractor Responsibility had sufficient reason to
    recuse himself from the case.

•   December 8, 2004: DESC awarded an estimated $6.5 million contract
    to RESE to provide the supply of retail electricity to various Federal
    installations.

•   January 2005: DLA SDO conducting evaluation as to whether Reliant
    Energy, Inc., or its subsidiaries should be suspended from contracting
    with the Federal Government.




                            18
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
   Director, Defense Energy Support Center

Non-Defense Federal Organizations
Inspector General, Department of Justice
Inspector General, Commodity Futures Trading Commission
Inspector General, Securities and Exchange Commission
Office of the Executive Director, Federal Energy Regulatory Commission




                                          19
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        20
Defense Logistics Agency Comments




                     21
22
23
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Contract Management prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report
are listed below.

David K. Steensma
Kimberley A. Caprio
Carol N. Gorman
Brian S. Benner
Takia A. Matthews
Meredith Johnson
